No. 20-267

3fa tfje Supreme Court of tfje ©ntteb Stated
Sean Braunstein,
Petitioner,
v.
Jericka Braunstein,
Respondent.
On Petition for Writ of Certiorari
to the United States Supreme Court for the
Supreme Court of the State of New Hampshire
MOTION FOR REHEARING OF
PETITION FOR A WRIT OF CERTIORARI

Carson J. Tucker, JD, MSEL, Counsel of Record
Lex Fori, PLLC
117 N. First St., Suite 111
Ann Arbor, MI 48104
(734) 887-9261
cjtucker@lexfori.org

1
MOTION FOR REHEARING

I disagree with the Court’s
construction of 38 U.S.C. § 211(a),
which provides that “decisions of the
Administrator on any question of
law or fact under any law
administered by the Veterans’
Administration providing benefits
for
their
veterans
and
dependents... shall be final and
conclusive and no other official or
any court of the United States shall
have power or jurisdiction to review
any such decision.” The Court finds
this inapplicable because it does not
explicitly
exclude
state-court
jurisdiction, as it does federal...and
because its underlying purpose of
“achiev[ing] uniformity in the
administration of veterans’ benefits
and protecting] the Administrator
from expensive and time-consuming
litigation... would not be impaired.
Rose v Rose, 481 US 619, 641-642; 107 S Ct
2029; 95 LEd 2d 599 (1987). (emphasis added)
(SCALIA, J., concurring).

2

There, Justice Scalia opined on the
applicability of 38 USC § 211 (now § 511) to a
state court order forcing a disabled veteran to
dispossess himself of his veterans’ disability
pay to satisfy a child support obligation.
Congress responded and changed 38 USC §
211 just after Rose to do exactly what Justice
Scalia referred to, i.e., explicitly exclude state
court jurisdiction, altogether. See 38 USC §
511(a) (in direct response to Rose, reference in
§ 211(a) to courts “of the United States” was
replaced with a separate sentence that
excludes review of benefits determinations as
to “any other official or by any court”).
Moreover, the first sentence was changed
to make it clear that the Secretary primarily
“shall decide all questions of law and fact”, as
opposed to the prior language which merely
provided that the “decisions of the
Administrator” would be deemed final and
conclusive as to courts of the United States.
These were fundamental changes in the
statute that removed any doubt about the
Veterans Administration’s (VA) primary and
exclusive jurisdiction over all claims for
veterans’ benefits by both veterans and their
dependents. Prior to 1988, the law did not
give the Secretary initial (and therefore

3

primary) jurisdiction to “decide all questions
of law or fact” regarding veterans’ benefits. It
also arguably limited the jurisdiction of the
VA over claims to such benefits to federal
courts - “court [s] of the United States”. See 38
USC § 211(a) (1970) (emphasis added).
Placing the primary and initial decision
over all questions of law and fact concerning
the division of benefits to veterans and
dependents under the exclusive jurisdiction of
the executive agency created for that purpose
and creating an internal and wholly “federal”
court system for appellate review of that
decision, with a linear appellate track straight
to the Supreme Court, was a substantive
change to remove any doubts regarding
concurrent jurisdictional decision-making
authority by state and federal courts. It
removed from any other court the diverse
considerations necessary when considering a
disabled veteran’s needs for his or her own
benefits and, consequently, any potential
needs of his or her dependents. Henderson v
Shinseki, 562 US 428, 441; 131 S Ct 1197; 179
LEd2d 159 (2011). As explained by one court,
“to dissuade the judiciary from ignoring ‘the
explicit language that Congress used in
isolating decisions of the Administrator from
judicial scrutiny,’... Congress overhauled both

4

the internal review mechanism and § 211 in
the [Veterans Judicial Review Act ] VJRA.
Pub. L. No. 100-687, 102 Stat. 4105.” Veterans
for Common Sense v Shinseki, 678 F 3d 1013,
1021 (9th Cir 2012), cert denied 568 US 1086
(2013).
Congress explicitly excluded all other
courts, including, of course, state courts from
second guessing the VA’s individual benefits
determinations
and
its
subsequent
adjudications - these types of decisions are
deemed by Congress to be within the exclusive
jurisdiction and final adjudicative authority of
the VA. Veterans for Common Sense, supra.
Section 511 dictates that the Board of
Veterans’ Appeals and the VA makes the
ultimate decision on claims for benefits and
provides one, and only one, reviewing body.
Moore v Peake, 2008 US App Vet Claims
LEXIS 1640 (2008).
Not only did Congress remove any notion
that state courts could intervene in a manner
contrary to a decision by the VA, but it also
created an Article I Court (the United States
Court of Appeals for Veterans Claims) to
exclusively review such decisions. 38 USC §§
7251 and 7261, respectively. See Public Law
100-687, November 18, 1988, 38 USC § 7251

5

(“There is hereby established, under Article I
of the Constitution of the United States, a
court of record to be known as the United
States Court of Appeals for Veterans
Claims”)Finally, since Rose, supra, this Court has
confirmed what Justice Scalia and Justice
White surmised in their separate statements
in that case, to wit, 38 USC § 5301 does, in
fact, jurisdictionally prohibit all state court
orders (equitable or legal) that would force a
veteran to use disability benefits to satisfy a
support obligation, even one, as here, that
would make the veteran pay a sum of money
that simply implicates the restricted benefits.
Rose, 481 US at 642-644 (SCALIA, J.,
concurring), 644-647 (WHITE, J., dissenting).
In Howell v Howell, 137 S Ct 1400, 1405-1406;
197 L Ed 2d 781 (2017), the Court addressed
this concern directly and held that all such
orders are preempted and that under 38 USC
§ 5301 state courts have no authority to vest
these benefits in anyone other than the
beneficiary. “Regardless of their form, such
reimbursement and indemnification orders
displace the federal rule and stand as an
obstacle to the accomplishment and execution
of the purposes and objectives of Congress. All
such orders are thus preempted.” Id. at 1406

6

(emphasis added). The Court reiterated that
under preexisting federal law, only Congress
could lift the absolute preemption and give the
state permission to count a veteran’s
disability as disposable income. Id. at 1404.
Congress has never done so for the benefits at
issue in this case.
Indeed, while Howell acknowledged that if
disability pay is received in lieu of waived
retired pay the state may allow division for
purposes of support of dependents, see 137 S
Ct at 1406 (citing Rose) and 42 USC § 659(a),
(h)(l)(A)(ii)(V) (authorizing the federal
government to honor state court orders when
there is “income” being paid in the form of
military disability retired pay (a portion of
retired pay owed to the veteran is replaced
with “partial” disability pay), that is not the
case here.
That is because 42 USC §
659(h) (l)(B)(iii) actually excludes from this
federal allowance all regular disability pay
paid to veterans with service-connected
disabilities
exceeding
the
retirement
allowance and/or with service-connected
disabilities incurred prior to eligibility for
retirement.
State courts may exercise
jurisdiction and authority over veteran’s
disability pay to satisfy a child support or
spousal support award, but only up to the

7

amount of his or her waived retired pay. 42
USC § 659(a), (h)(l)(A)(ii)(V), (B)(iii); 5 CFR §
581.103 (2018). See also In re Marriage of
Cassinelli (On Remand), 20 Cal App 5th 1267,
1277; 229 Cal Rptr 3d 801 (2018) (on remand
from the United States Supreme Court for
consideration of Howell).
Howell reaffirmed that all other disability
benefits are protected unless Congress has
made an exception. Id. at 1404-1406. Here,
there is no exception. Thus, Petitioner’s
benefits are protected by the affirmative and
sweeping jurisdictional protection from “any
legal or equitable process whatever, either
before or after receipt” provided by 38 USC §
5301(a)(1).
No such federal permission exists in this
case because Petitioner is a permanently and
totally disabled veteran who never attained
time in service sufficient to even be eligible for
disability retirement benefits that might be
available as a disposable asset subject to state
court support orders under 42 USC §
659(h) (1) (A) (ii) (V).
This Court has recently confirmed the
overarching principles in Howell. State courts
have always been preempted in this subject

8

matter unless federal law allows exercise of
jurisdiction and authority over the federal
benefits at issue. Moreover, the Court applied
38 USC § 5301, recognizing that it
jurisdictionally prohibited the veteran from
dispossessing himself of the benefits at issue
and it also prohibited state courts from
entering orders that would force the veteran
to use these benefits to pay orders in
contravention of federal law.
Petitioner has presented the Court with
the facts demonstrating that there is a
fundamental jurisdictional defect in the
exercise by the state over the disposition of his
federal veterans’ disability benefits. As this
Court has recognized where an agency has
been given primary (and in this case exclusive
federal) jurisdiction over a claim or issue,
other courts lack subject matter jurisdiction to
enter any rulings that would contravene the
disposition of that claim by the agency which
retains such jurisdiction. Henderson, 562 US
at 432-433.
State courts are precluded “from inquiring
into and adjudicating” claims and issues that
reside solely and exclusively within the
federal agency designated for that purpose.
As this Court has recognized, the doctrine of

9

primary jurisdiction applies to federal
agencies that have been tasked with
exercising the full scope of Congress’s
enumerated powers under the Constitution.
Id.
As jurisdictional defects may be raised at
any time, even collaterally or after the time
for appeal has passed, and a court must
always, sua sponte, question its own authority
and jurisdiction over a particular matter,
Petitioner respectfully submits that here, as
the New Hampshire Supreme Court’s opinion
contravened the primary and exclusive
jurisdiction of a federal agency designated by
Congress as the sole arbiter of claims for
veterans’ benefits, rehearing is warranted.
Jurisdiction, in its fullest sense, is not
restricted to the subject-matter and the
parties. If the court lacks jurisdiction to
render, or exceeds its jurisdiction in rendering,
the particular judgment in the particular case,
such judgment is subject to collateral attack,
even though the court had jurisdiction of the
parties and of the subject-matter. This Court
has so ruled in Windsor v McVeigh, 93 US 274;
Ex Parte Rowland, 104 US 604; Ex Parte
Lange, 18 Wall (85 US) 163. A state court that
“transcend [s] the limits of its authority” in

10

rendering a judgment issues a void decree.”
Windsor, supra at 282. See also Cooley,
Constitutional Limitations (7th Ed) (1903), pp
575-576, stating:
If [the court] assumes to act in a case
over which the law does not give it
authority, the proceeding and
judgment will be altogether void,
and the rights of property cannot be
divested by means of them....
[CJonsent
can
never
confer
jurisdiction: by which is meant that
the consent of parties cannot
empower a court to act upon subjects
which are not submitted to its
determination and judgment by the
law.”
•kick

[W]here a court by law has no
jurisdiction of the subject-matter of
a controversy, a party whose rights
are sought to be affected by it is at
liberty to repudiate its proceedings
and refuse to be bound by them,
notwithstanding he may once have
consented to its action, either by
voluntarily
commencing
the
proceeding as plaintiff, or as

11

defendant by appearing and
pleading to the merits, or by any
other formal or informal action. This
right he may avail himself of at any
stage of the case; and the maxim that
requires one to move promptly who
would take advantage of an
irregularity does not apply here,
since this is not mere irregular
action, but a total want of power to
act at all.... [T]here can be no waiver
of rights by laches in a case where
consent would be altogether
nugatory, (emphasis added).
There is no question that the state has
exceeded its jurisdiction and authority in this
case. See 38 USC § 511(a). Not one jot or tittle
of state sovereignty remains to divert or
otherwise decide the use of Petitioner’s
benefits.
They are also protected by affirmative and
positive federal legislation.
38 USC §
5301(a)(1). United States v Hall, 98 US 343,
349-355; 25 L Ed 180 (1878). The Court, in
1878, stated of canvassing the anti­
attachment provisions in veterans’ benefit
legislation that “[t]hese diverse selections

12

from the almost innumerable list of acts
passed granting pensions are sufficient to
prove that throughout the whole period since
the Constitution was adopted it has been the
policy of Congress to enact such regulations as
will secure to the beneficiaries of the pensions
granted the exclusive use and benefit of the
money appropriated and paid for that
purpose.” Id. at 352 (emphasis added).
All of the legislative authority concerning
the provision of veterans’ benefits and their
disposition are a direct exercise by Congress
of its enumerated powers over military
affairs. Id. at 346-356. See also Hines v
Lowrey, 305 US 85, 90-91; 59 S Ct 31; 83 L Ed
56 (1938); Wissner v Wissner, 338 US 655,
660-661; 70 S Ct 398; 94 L Ed 424 (1949);
United States v Oregon, 366 US 643, 648-649;
81 S Ct 1278; 6 L Ed 2d 575 (1961); Free v
Bland, 369 US 663, 666; 82 S Ct 1089; 8 L Ed
2d 180 (1962); McCarty v McCarty, 453 US
210, 220-223; 101 S Ct 2728; 69 L Ed 2d 589
(1981); Ridgway v Ridgway, 454 US 46, 54-55;
102 S Ct 49; 70 L Ed 2d 39 (1981); Mansell v
Mansell, 490 US 581, 587; 109 S Ct 2023; 104
L Ed 2d 675 (1989); Howell v Howell, 137 S Ct
1400, 1404; 197 L Ed 2d 781 (2017). As this
Court has most recently acknowledged in
Howell, supra, federal law preempts state law

13

control over military benefits absent
congressional authority. Federal preemption
goes to the subject matter jurisdiction of the
state courts because where federal
preemption applies, the federal government
has retained its sovereign authority over the
issue. The state court has no authority to
exceed its constitutional jurisdiction in such
matters. The delegated powers of the federal
government have not been surrendered to the
states.
The states may only exercise jurisdiction
and authority over those matters that have
been granted to it by Congress. If the rule
were otherwise, then 50 states could have 50
different rules (or even one consistent but
erroneous rule) than that which is established
as the Supreme Law under the Constitution.
Justice Story described this as a situation that
would be “truly deplorable”.
Martin v
Hunter’s Lessee, 14 US 304, 348; 4 L Ed 97
(1816).
Against this backdrop the conclusion is
quite simple. Not only has Congress been
delegated absolute preemptive authority over
these matters, but in 1988, after the Rose
decision that the state court relied on here to
assert authority over the federal benefits,

14

Congress amended 38 USC § 211 (now 38 USC
§ 511) to remove any of the reservations
concerning potential concurrent state
jurisdiction over claims by dependents for
veterans’ benefits. Rose v Rose, 481 US at 628.
A decision by a state court that forces a
disabled veteran to use his or her restricted
benefits to pay for support of dependents, is a
decision that necessarily interferes with and
ostensibly supersedes (albeit erroneously) the
primary and exclusive jurisdiction of the VA.
Any decision by the Secretary under its
authority as provided in § 511(a) to provide
benefits is prima facie insulated from any
subsequent state court authority with respect
to those benefits. The statute provides that
“[t]he Secretary shall decide all questions of
law and fact necessary to a decision by the
Secretary under a law that affects the
provision of benefits by the Secretary to
veterans or the dependents or survivors of
veterans.” (emphasis added). The second
sentence of that provision continues: “[T]he
decision of the Secretary as to any such
question shall be final and conclusive and may
not be reviewed by any other official or by any
court, whether by an action in the nature of
mandamus or otherwise.” (emphasis added).

15

Jurisdiction is exclusively vested in the
Secretary as to “any court”. Federal law
nowhere allows for the benefits at issue to be
without the jurisdictional protections afforded
by federal law and Congress’s assurance that
only the Secretary can make the initial
benefits determination and, necessarily, any
subsequent request to apportion them in a
manner that differs from the original
disposition.
Any claim or decision that relates to or
involves the disposition of a veterans’ federal
disability benefits necessarily affects a
decision that has already been made by the VA
Secretary concerning a claim for those
benefits by the veteran or by his or her
dependents. 38 USC § 511(a). The VA’s
decision as to how much of those benefits
should be paid to the veteran and the reasons
those payments are made cannot be interfered
with or disrupted by a contrary ruling by any
other person or court. Id. Such decision
would disrupt the federal appropriation, the
congressional
scheme
for
military
compensation, and most importantly the
delegated and exclusive powers of Congress
over military affairs. To be clear, any decision
by a state court that would cause a diversion
of these protected funds away from the

16

federally designated beneficiary (usually the
veteran) to any other person or entity would
be an extra-jurisdictional act and in direct
conflict with the provisions of 38 USC § 511,
the VJRA and the anti-attachment provision,
38 USC § 5301. So, to conclude that a state
court is without authority, is to say that it has
no jurisdiction,
and here,
that is
constitutional jurisdiction, to issue a contrary
ruling. See Howell, 137 S Ct at 1405-1406.
RELIEF REQUESTED
For the reasons stated above, Petitioner
requests the Court to recognize the primary
and exclusive jurisdiction of the Secretary of
Veterans Affairs over his benefits, summarily
reverse the decision of the Supreme Court of
New Hampshire, which allowed the state
court to assert unauthorized control and
authority over those benefits, or, alternatively
to grant a rehearing on his petition for a writ
of certiorari to the Supreme Court of New
Hampshire.
Respectfully submitted,

CM.

Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner

No. 20-267

lit tlje Supreme Court of tlje tHuttefc &tate*
Sean Braunstein,
Petitioner,
v.
Jericka Braunstein,
Respondent.
RULE 44 CERTIFICATE

Carson J. Tucker, JD, MSEL, Counsel of Record
Lex Fori, PLLC
1250 W. 14 MILE RD„ DPT. #3020
Troy, MI 48083-1030
(734) 887-9261
citucker@lexfori.org

RULE 44 CERTIFICATE
Pursuant to Supreme Court Rule 44.1 undersigned counsel for Petitioner certified that:
1. The within Petition for Rehearing is being presented to the Court in good faith and not for
purposes of delay. The underlying decision of the state courts has not been delayed or suspended
pending the disposition of Petitioner’s petition before this Court.
2. The grounds of this Petition are limited to intervening circumstances of a substantial or
controlling effect or to other substantial grounds not previously presented.

Respectfully submitted,

kL.
Carson y Tucker
Attorney for Petitioner
ci tucker@,l exfori. or g
(734) 887-9261

Dated: January 14, 2021

2

